APPENDIX 1a

Case 3:94-cr-00123-HTW Document 53 Filed 04/15/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
BARTO EDWARD USRY, JR.
vs.

PETITIONER
CRIMINAL ACTION No.: 3:94-CR-123-HTW-1
CIVIL ACTION No.: 3:16-CV-499-HTW

UNITED STATES OF AMERICA

RESPONDENT
ORDER

BEFORE THIS COURT is the petitioner’s Motion to Vacate under Title 28 U.S.C. § 2255
[Docket no. 44]. Petitioner, by his motion, asks this court to set aside his sentence due to the
United States Supreme Court’s opinions in Johnson v. United States, 135 S.Ct. 2551 (2015) and
United States v. Welch, 136 S.Ct. 1257 (2016).
Petitioner filed the instant motion, arguing that § 4B1.4 is unconstitutionally vague in light
of the United States Supreme Court’s holding in Johnson v. United States, 135 S.Ct. 2551 (2015).
This court stayed consideration of the motion pending a decision by the Supreme Court in Beckles
v. United States, 580 S. Ct. 886 (Mar. 6, 2017). The Supreme Court issued its memorandum
opinion on March 6, 2017, holding that the “Advisory Sentencing Guidelines are not subject to a
vagueness challenge under the Due Process Clause and that § 4B1.2(a)’s residual clause is not
void for vagueness.” Id at 895. This court is persuaded that the same reasoning applies to the case
at bar and § 4B1.4 (the Armed Career Criminal enhancement of the Advisory Sentencing
Guidelines) is not void for vagueness and, therefore, cannot provide petitioner relief.
Accordingly, this court holds that the United States Supreme Court’s decision in Beckles
forecloses the relief sought by the Petitioner and therefore the Petition should be denied.
IT IS THEREFORE ORDERED that the petitioner’s Motion to Vacate under Title 28
U.S.C. § 2255 [Docket no. 44] is hereby DENIED.
1

Case 3:94-cr-00123-HTW Document 53 Filed 04/15/19 Page 2 of 2

IT IS FURTHER ORDERED that the instant petition is hereby DISMISSED.
IT IS FINALLY ORDERED that the related civil case 3:16-cv-499-HTW is hereby
DISMISSED.
SO ORDERED AND ADJUDGED this the 13th day of April, 2019.

s/ HENRY T. WINGATE
UNITED STATES DISTRICT COURT JUDGE

2

APPENDIX 1b

Case 3:94-cr-00123-HTW Document 55 Filed 07/01/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
vs.

CRIMINAL ACTION No.: 3:94-CR-123-1-HTW

BARTO USRY
CERTIFICATE OF APPEALABILITY - DENIED
A final order adverse to the applicant having been filed in the captioned habeas corpus
case, in which the detention complained of arises out of process issued by this court, this Court,
considering the record in the case and the requirements of 28 U.S.C. § 2253, Rule 22(b) of the
Federal Rules of Appellate Procedure, and Rule 11(a) of the Rules Governing Section 2254 Cases
in the United States District Courts, hereby finds that a Certificate of Appealability should not
issue. The applicant has failed to make a substantial showing of the denial of a constitutional right.
SO ORDERED this the 1st day of July, 2019.
s/ HENRY T. WINGATE
UNITED STATES DISTRICT COURT JUDGE

1

APPENDIX 2

Case: 19-60241

Document: 00515545137

Page: 1

Date Filed: 08/28/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-60241

A True Copy
Certified order issued Aug 28, 2020

United States of America,

Clerk, U.S. Court of Appeals, Fifth Circuit

Plaintiff—Appellee,
versus
Barto Edward Usry, Jr.,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:16-CV-499
USDC No. 3:94-CR-123-1
ORDER:
Barto Edward Usry, Jr., federal prisoner # 04020-043, seeks a
certificate of appealability (COA) to appeal the district court’s dismissal of
his 28 U.S.C. § 2255 motion challenging the 295-month prison sentence and
the five-year supervised release term on his jury trial conviction for
possessing a firearm after having been adjudicated a felon. See 18 U.S.C.
§ 922(g). For a COA to issue, Usry must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003). Because dismissal was on the merits, he
will meet this standard if he shows “that jurists of reason could disagree with

Case: 19-60241

Document: 00515545137

Page: 2

Date Filed: 08/28/2020

No. 19-60241

the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to
proceed further.” Buck v. Davis, 137 S. Ct. 759, 773 (2017) (internal
quotation marks and citation omitted).
Usry seeks a COA to pursue his claims that, in light of Johnson v.
United States, 576 U.S. 591 (2015), it was unconstitutional to enhance his
sentence under the Armed Career Criminal Act and under United States
Sentencing Guideline § 4B1.4(b)(3)(A). Because Usry does not show that a
reasonable jurist could think that he deserves encouragement to proceed
further with his claim, a COA is DENIED. See Buck, 137 S. Ct. at 773.

STUART KYLE DUNCAN
United States Circuit Judge

2

